PENNSYLVANIA •
CRIMINAL DIVISION
CP-46-CR-0000735-2018

COMMONWEALTH OF PENNSYLVANIA

No. 3256 EDA 2018

V.
CARLOS LOPEZ-VANEGAS
ORDER

AND NOW, this 5th day of April, 2019, after a hearing on the Appellant’s eligibility
for court-appointed counsel, and the Appellant found to be eligible,
It is hereby ORDERED that Brooks T. Thompson, Esquire is appointed to represent
Carlos Lopez-Vanegas on the above-captioned matter, for the purpose of appeal to the
Superior Court.______________________________________________________________
" This Order shall serve as Entry of Appearance of Brooks T. Thompson. Esquire,
appointed counsel.
The compensation of said appointed counsel is to be borne by Montgomery County.
The Petition for Compensation shall only be submitted to the Chambers of The Honorable
William R. Carpenter. Do not send the Petition to the Clerk of Courts or to the Criminal
Administrative Judge.

..
BY THE COURT:

d&R'
WILLIAM R.

'ENTER

J.

Copies sent on April 5, 2019
By Interoffice Mail to:
Robert Falin, Esquire
Jennifer Kessel, Esquire
Carol Dillon, Court Services
By First Class Mail to:
Carlos Lopez-Vanegas, #NP3809, SCI Phoenix, 1200 Mokychic Drive, Collegevine, PA 19426
Christopher Koschier, Esquire, 266 E. Main Street, Suite 3, Norristown, PA 19401
Brooks T. Thompson, Esquire, 21 W. Airy Street, Norristown, PA 19401
Benjamin D, Kohler, Esquire, Deputy Prothonotary, Superior Court of Pennsylvania,
530 Walnut Street, Suite 315,Philadelphia, PA 19106

'mmrnrn

wm

“5i''

TBffSSSSPSS1SEff*

^gefei &-KS

Pw

__-____________ ___________ *_____________ _____ OFFICE_____IN THE COURT OF COMMON PLEAS OF MONTGOMERY CofiWP^^^ COUNT Y
PENNSYLVANIA
.2.013 FEB -4 AM8--5Q
CRIMINAL DIVISION
COMMONWEALTH OF PENNSYLVANIA :
V.

CP-46-CR-000073 5-2018
3256 EDA 2018

CARLOS LOPEZ-VANEGAS
OPINION
CARPENTER J.

FEBRUARY 1, 2019
FACTLJALANnRPOCFDURALHtSTORY

Appellant, Carlos Lopez-Vanegas (“Appellant”), appeals from the
judgment of sentence imposed on September 28, 2018, following his conviction
of three counts of rape of a child, three counts of involuntary deviate sexual
intercourse, one count of aggrayated indecent assault of a child, two counts of
indecent assault-person less than 13, one count of both corruption of minors
and endangering the welfare of a child .for the ongoing sexual abuse of his
eleven-year-old niece, K.D., and his five-year-old daughter, C.L.1
The trial established the following facts. On November 20, 2017,
K.D. and C.L disclosed the sexual abuse to their mutual grandmother, Carmen
Vega. (Trial by Jury, V. 2, 7/10/18 pp. 79 - 80). Ms. Vega testified that she has
two children, Brenda Rivera and Heana Rivera. Id., at 75 - 76. Brenda Rivera is
the mother to three children; in particular she is K.D.’s mother. IL at 76. Ileana
Rivera also has three children, including C.L. Id at 78. Appellant is the father to
i
X

Appellant was found not guilty of two counts aggravated indecent assault of a child. <■. ,

1

•sum

;^r^.rjj*_r_';^'. . . : -

MMMMM
.-'.ux^,/.-£~j

,^-~ _JL .T^r.

:

BH

i

7^“

fleana’s children and was living with her and their children at the time of the
abuse.
On November 20, 2017, Ms. Vega was babysitting her grandchildren
and her grandson touched one of her granddaughters “in the private parts." Id.
at 80. Ms. Vega reprimanded her grandson. Spontaneously C.L. said, “[w]ell, my
dad touch me in my private parts all the time.” Id. C.L indicated to her
grandmother,that her private parts include her genital area and her buttocks.
y

Id. at 80 - 81.
K.D.

so came "fofward to “tell her grandmother thatAppellant

touched her “in her private parts too, a couple of times.” Id at 81. K.D. also
i»-

r,

disclosed that it would happen during sleepovers when Ileana would go to
work. Appellant would take her into the bedroom 'where he and Ileana would

:

sleep. He touched her and made her take her clothes Off. Id at 82. K.D. was
nervous and was willing to talk more, but didn’t since the other kids were
around Id at 84. Ms. Vega relayed to Brenda what K.D. had told her. Id at 85.
On December 29, 2017, Ms. Vega spoke to K.D. again about her
previous disclosure of sexual abuse. Id. at 85. Ms. Vega and K.D. were alone and
she asked her granddaughter some questions about their previous
conversation. Id at 85 - 86. Ms. Vega told the jury that K.D. became nervous
but told her that, “[a]ctually, it did happeh Other things.” Id at 86. Ms. Vega
asked her for more details and testified as to: KLD.’s response as follows:

■f

he took her to the bedroom and put them in bed; that
he took his clothes off and starting touching her. That
2

■•-t?—

he did put his. like she said, his private part in her.
And I ask her if it was just touching her or if he put his
penis inside, and she said yes, he did. Because she said,
“Actually, it did hurt and I tried to scream and he
covered my mouth and he didn’t allow me to scream,
so I started crying.” And he said it was fine, it s okay,
nothing is going to happen.
Id. K.D. also told her grandmother that it happened more than once at Ileana’s
house. Id. at 88.
Ms. Vega relayed this information to Brenda. Id. at 89. Ms. Vega and
Brenda took K.D. to the hospital so she could be evaluated. Id. On December 30,
2017, theLansdale BoroughTohce'Departmenrwa^notified-ofiChese
allegations, and Detective Oropeza responded to the hospital. (Jury Trial , V. 3,
7/11/18 pp. 131 - 132). The following day, on December 31, 2017, fleana was
notified of the allegations involving C.L. Id, at 132 - 133. A short time after,
Ileana and her family moved into the home Ms. Vega shared with Brenda and
her children. (Jury Trial, V.2, 7/10/18 p. 92).
K.D . testified at trial. She was eleven at the time of trial. Id. at 68.
She has two younger siblings, Brian and Leylanie. 14 at 73. K.D. told the jury
that when she would sleep over Ileana’s house with her cousins, Appellant
would wake her, while Ileana was at work and he would take her to the
bedroom where he and Ileana slept. Id at 81 - 82. There, Appellant made K.D. s
take her clothes off. Id. at 83. He touched her vaginal area, and she testified
that he would put his fingers, tongue and penis inside and move them around.
Id at 87 -88, 91 - 93. Appellant also touched her buttocks area and his fingers
and penis would go inside and outside that area moving around.. Id.
Id at 88 - 89.
3

Appellant used something “squishy” on his penis to make it hurt less. Id. at 96,
97. To keep K.D. from screaming, Appellant would put a blanket or a pillow in
her mouth. Id at 95. Appellant also forced K.D. to put his penis in her mouth
and teh her to “suck it.” Id at 98 - 99. Appellant did all these things more than
five times. Id at 102 - 103. K.D. told the jury how she went to the hospital after
disclosing this sexual abuse. Id. at 106.
On December 30, 2017, K.D. was examined by Amanda Schwenk,
R.N., who is a registered nurse at Grandview Hospital. (Trial by Jury, V. 2,
77T07r8^pT98-99)7AFthal7Ms:SchwenkTead-from-the-tri-agemoteswhich-----documented that K.D. requested for both her mother and grandmother not to
be in the room to discuss the assault. Id at 101, The only people present during
the interview were Nurse Schwenk and Dr. Patjo. Id. at 102.
C.L., who was five at the time of the trial told the jury that
Appellant did a bad thing to her body. (Trial by Jury, V. 2, 7/10/18 pp. .12

13).

C.L., using a cartoon picture of the front and back of a girl, she testified that
Appellant did something bad to her vaginal and buttocks area. Id at 13 -14. It
happened more than once. Id. at 14. C.L. was hesitant to provide details at trial,
saying that she doesn’t want to say. Id. at 17. C.L acknowledged that she spoke
to Miss Maggie at Mission Kids about what happened and said that everything
she told her was the truth. Id at 17 - 18.
Next, A.L, C.L.’s seven-year-old sister, testified. Id at 7. When first
asked if she ever saw Appellant do anything to her sister she replied, “No.” Id
at 51. She said she saw nothing. Id After the prosecutor asked, Anaelys stated
4

wr

that her mother told to her to say that she saw nothing. Id. at 52, 57. She also
told the jury that her mother told her that she needed to get her dad out of jail.
Id at 52 - 53. Upon further questioning, Anaelys admitted that she told Miss
Maggie from Mission Kids that she had seen her father with C.L . in her mom’s
room in the same bed. Id at 5 5, At .trial she told the jury her dad had his
clothes on, but reported to Mission Kids that Appellant did not have his clothes
on when she saw him with her sister. Id at 56. Anaelys testified that Appellant
told her it wa.s a secret when she saw them in the bed together and then took
-her-to a playground. -Id——— ----- —;— -------- —— --------------------Maggie Sweeney, the Program Manager and forensic interviewer at
Mission Kids Advocacy Center, also testified at trial on behalf of the
Commonwealth. Id at 109. She was recognized at trial as an expert in forensic
interviewing. Id at 110. She explained to the jury that as a forensic interviewer
she utilizes open-ended, non-leading developmentally appropriate questions of
the children because they elicit the most accurate information from children.
Id at 111, 112. On January 9, 2018, she conducted a forensic interview of K.D.,
C.L and A.L Id at 113,115,117. A second interview of A.L. was conducted on
June 27, 2018, based on new information. Id at 117.
Ileana Rivera was told on December 31, 2017 about the allegations
made against Appellant made by C.L. (Trial by Jury, V. 2, 7/10/18 p. 73). Ileana
asked C.L. directly about it in front of Appellant, who interjected and said he
did nothing. Id at 93. Ileana and her three children moved in with Ms. Vega,
Brenda and Brenda’s three children. Id at 95. C.L. revealed to her mother about
5

the sexual abuse. Id. at 95 - 96. A.L also told her mother that she had a secret
with Appellant, involving touching C.L. Id. at 96 - 97. After fleana found all of
this out she and her three children moved in with Brenda. Id. at 97.
Additionally, the Commonwealth questioned this witness as to whether she
coached or influenced A.L. to change her statement in the second Mission Kids
interview. Id. at 102 - 103.
Also to testify on behalf of the Commonwealth was Brenda Rivera,
Detective Joel Greco, an investigating detective of the Lansdale Borough Police
Department, JacquehhOlocITGdldstein, an expert in victimhehavior m-child—
sex abuse cases, and Dr. Brian Brennan, an expert in child abuse pediatrics, who
provided a physical examination of K.D. on January 10, 2018. (Jury Trial, V. 3,
7/11/18 p. 9).
On behalf of Appellant to testify was Hazel Ordonez, Appellant’s ;
sister-in-law and Jairo Lopez Venegas, Appellant’s brother.
At the conclusion of the four-day trial, Appellant was found guilty
of the aforementioned crimes. On September 28, 2018, a sentencing hearing
was conducted at which both Appellant’s father, brother, sister-in-law testified
on his behalf. Two letters of support for Appellant were submitted and read to
this Court. This Court sentenced Appellant to an aggregate sentence of 48 to 69
years’ imprisonment.
A timely notice of appeal was filed. Appellant was directed to file a
concise statement of errors complained of oh appeal pursuant to Pa.R.A.P.
1925(b), which he did. Those issues are addressed below.
6

•y:.'

ISSUES
Whether Appellant's rnmrmlsorv process and confrontation rights were
nnt implicated when he was not permitted to present Brenda Rivera,
Tieana Rivera and Carmen Vega at a taint hearing, when he was not
entitled to a taint hearing.

1.

IL

Whether this Court properly denied the request for a taint hearing, when
Appellant did not meet the legal threshold.

m.

Whether rlaims of thfrd-partv child abuse were properly found to_be
inadmissible at trial.

IV.

Whether the Office of Child and Youth reports were properly found to_be
inadmissible at trial.
. •

v:

Whether^hts~foTirt-properlv^i^t^ned^he-£ornmQnwealth-Qb^ectioii

Vi.

whether this Court properly sustained the Commonwealth’s objection
during the cross-examination of A.L.

—

dnrinp the cross-examination of K.D.

CTOSS-

her children.
Vffl.
Rivera
examination.
DISCUSSION
i.

Appellant’s rompulsorv process and confrontation rights were nQi
Rivera
taint hearing.

H.

This Court properly denied the request for a taint hearing, when
Appellant did not meet the legal threshold.
First in his 1925(b) statement, Appellant asserts that this Court

erred in not allowing him to call Ileana Rivera, Brenda Rivera, and Carmen Vega
at the June 25, 2018, pretrial motions hearing in contravention of his
7

compulsory process and confrontation rights under Article 1, Section 9 of
Pennsylvania’s constitution. Second, he contends that this Court erred in
denying his motion for a taint hearing following his offer of proof at the June
25, 2018, pretrial motions hearing. Issues I and II will be addressed
simultaneously because they both implicate Appellant s right to a taint hearing.
At the pretrial motions hearing held on June 25, 2018, defense
counsel announced that there was a need for an evidentiary hearing. (Pretrial
Motions Hearing 6/25/18 p. 4). He stated that he needed to be able to present
Hlrendurihveraandrheana-RiveraVstatements-and40-examine4hem-cmJh.e_issue
of taint. Id.
As discussed below, Appellant did not establish his threshold
burden to entitle him to a taint hearing thereby Appellant’s rights were not
implicated.
Generally, a court evaluates an allegation of taint at a competency
Taint
hearing . rnmmonwealth v. Delbridge, 578 Pa. 641, 855 A.2d 27, 40 (2003).
is the implantation of false memories or the distortion of real memories causes
by interview techniques of law enforcement, social service personnel, and other
interested, adults, that are; so unduly suggestive and coercive as to infect the
memory of the child, rendering the child incompetent to testify.” Id, at 35.
the proponent of the taint claim first bears the burden of
establishing “some evidence” of taint. Id, at 40. Once the party meets that
threshold requirement, he then must meet the ultimate burden of
demonstrating taint by clear and convincing evidence. Id, The critical inquiry in
8

deciding the issue of taint at a competency hearing is whether the memory of
the child has been corrupted. Id
/

In analyzing whether a party has met the “some evidence of taint
standard, the trial court considers the totality of the circumstances around the
child's allegations. Id at 41. This Court has identified some of the common
considerations relevant to this analysis as follows:
the age of the child; (2) the existence of a motive
hostile to the defendant on the part of the child’s ^
primary custodian; (3) the possibility that the child s
-------------^iimaiytmstodian4s-ufiusuahyTLkel-y-t-o-readahuse-^—-----into normal interaction; (4) whether the child was
subjected to repeated interviews by various adults in
positions of authority; (5) whether an mterested adult
was present during the course of any interviews,, and.,
(6) the existence of independent evidence regarding the
interview techniques employed.
: .
commonwealth v. Smith. 167 A.3d 782, 790 (Pa.Super. 2017) (citing,
romm on wealth v. Tudd. 897 A.2d 1224,1229 (Pa. Super. 2006) (citation
omitted).
A pretrial motions hearing was held on June 25, 2018, where
defense counsel stated that the allegations of abuse to authorities were made
after the December 29, 2017, conversation that Ms. Vega had with K.D. (Pretrial
Motions Hearing 6/25/18 p. 5). Counsel argued that during that conversation,
she asked questions of K.D . to which K.D. responded with single word, “Yes”,
answers. Id. at 5 - 6. He claimed that Ms. Vega walked K.D. through what
eventually became her allegations of sexual.assault. Id, at 6.

9

• He further argued that when Brenda talked to the other children,
there were multiple children that made claims of sexual molestation, some of
which were not repeated at the child advocacy center interviews. Id. at 7 - 8. It
was also reported that C.L alleged that she was victimized by one Appellant’s
brothers, which she did not repeat that assertion. IcLat 8.
Defense counsel further argued that there were relationship
difficulties between Appellant and Ileana, wherein Ileana accused Appellant of
being unfaithful. Id..at 9.
_________ Tn this rasp applying the Delbridge factors, this Court denied the
defense request for a taint hearing because the defense offer of proof was
insufficient and did not meet the threshold that would entitle him to a taint
hearing. (Pretrial Motions Hearing 6/25/18 p. 17). There was no evidence of
hostile intent or any reason to plant these suggestions or to distort the memory
of the children, 11 and five years old. Id.
This Court determined that there was not any questioning that was
suggestive. Id, The Mission Kids interviewer used open-ended, non-suggestive
questions. The purpose of the Mission Kids interview is to see that the child is
only interviewed once by law enforcement people. Id. The techniques that were
used during the Mission Kids interview were open-ended. Id. at 18.
Importantly, the initial disclosures of sexual abuse by the children
were spontaneous. The statements made were largely consistent. There is no
evidence of implanting or distorting memories. Id.

10

Nothing presented indicated that the primary custodian would
have been likely to read abuse in the normal situations. Id. In fact, the initial
statements were not made to the victims’ respective mothers.
There were not repeated interviews by various adults in positions
of authority. The nurse, to the extent that was an interview, was minimal. It was
also one where K.D. asked to be alone with the nurse. So there was no
interested adult in the room at the time, or in the Mission Kids interviews.
It is important to note that in defense counsel’s taint argument he
skipped overthe^ontmewsTmtiakdisclosures-made-on-Novembe^-2Cl,-2-&i-7-^Rather, his argument focused on the December 29th follow-up conversation in
which Ms . Vega asked K.D. for additional details. Both the fact that Ms. Vega did
not go to police'after this initial disclosure goes-to her lack of hostile intent,
and the fact that even after the December 29th conversation Ms. Vega and
Brenda took K.D. to the hospital and not the police also go to lack of hostile
intent. Finally, it is important that Ileana was not told about any of the abuse
allegations until December 31, 2017, which was after the police were involved
and the abuse reports by the children were made to OCY. Clearly she could not
have tainted the sexual abuse allegations and statements made prior to her
knowledge.

m.

Claims nf third-party rhild abuse were properly found to be inadmissible
at trial.

IV.

nffirp nf rhild and Youth reports were properly found to be
inadmissible at trial.

11

Third and fourth on appeal Appellant challenges this Court’s
rulings that third-party sexual abuse allegations are inadmissible and will be
discussed together. More specifically, Appellant claims that this Court erred in
ruling that the contemporaneous complaints of K.D. that she had been raped
and/or sexually abused by his two brothers were not relevant and inadmissible
following the pre-trial motions hearing. Additionally, Appellant contends that
this court erred in ruling ndt relevant and inadmissible testimony that reports
were made to OCY that LR., a blood relative and companion of both victims,
was also sexually hbused“by him contemporaneously with the current offenses,
but that she stated that no assault occurred.
Appellant challenges several evidentiary rulings by this court. In
determining whether evidence should be admitted, the trial court must weigh
the relevant and probative value of the evidence against the prejudicial impact
of that evidence. Evidence is relevant if it logically tends to establish a material
fact in the case or tends to support a reasonable inference regarding a material
fact. Although a court may find that evidence is relevant, the court may
nevertheless conclude that such evidence is inadmissible on account of its
prejudicial impact. Commonwealth v. Vucich, 2018 PA Super 234,194 A.3d
1103, 1106 (2018) (citing, Commonwealth v. Storey, 167 A.3d 750, 758
(Pa.Super. 2017) (citation omitted)).
The decision to admit or exclude evidence is committed to the trial
court’s sound discretion and its evidentiary rulings will only be reversed upon a
showing that it abused that discretion. Such a finding may not be made “merely
12

- r-----—

because an appellate court might have reached a different conclusion, but
requires a result of manifest unreasonableness, or partiality, prejudice, bias, or
ill-will, or such lack of support so as to be clearly erroneous.” Commonwealth v.
Sherwood, 603 Pa. 92,112, 982 A.2d 483,495 (2009). Furthermore, an
erroneous ruling by a trial court on an evidentiary issue does not necessitate
relief where the error was harmless beyond a reasonable doubt. Commonwealth
vj-aird, 988 A.2d 618, 636 (Pa.2010).
The Commonwealth filed a motion in limine in order to prevent
defense counsel from introducing evidence of fhird-party-sexual abuse

■

-

allegations and from introducing Office of Children and Youth (OCY) records. A
pretrial motions hearing was held on June 25, 2018.
At the pretrial motions hearing, defense counsel argued that the
theory of the defense was that K.D. and CLs’ allegations were made up at the
behest of Appellant’s fiance, Ileana, in retaliation for perceived slights over the
course of their relationship. (Pretrial Motions Hearing 6/25/18 p. 28). He
asserted that being allowed to introduce third-party abuse allegations,
especially those that were later determined to be unfounded, even those that
were founded by against the defendant’s family members, strike at that issue in
regard to credibility, to motive and to whether or not there existed a condition
in which frivolous sexual abuse allegations were being made. JcL
He also argued that it is important to note that there is no
corroborating evidence that would tend to show that the victim’s statements
were true. There is no physical evidence. There is no other witnesses, with the
13

^r;t>

exception of potentially the witnesses that have not developed yet. IcL at 28 29. Therefore, he urged that credibility is almost a sole determination for the
jury. Id at 29. Counsel argued that to present the full picture he needs to be
able to demonstrate that the allegations weren’t only against Appellant, but
also his family members. Id

• ■

As to the OCY records, at the pretrial motions hearing, defense
counsel argued that he is not seeking to introduce the OCY records for the
purpose of the truth of the matter asserted; but rather, it would have been for
arlrmynf pTirposesr~More~sr)ecifically7-defense—counseLass^erted that the —
impe

fact there were reports that they made to sorneone that then communicated
that to OCY that Leylanie Roman, who is the sister and cousin of the two
victims, and she refused to repeat that. Without this; evidence counsel argued
that the defense would be undercut. (Pretrial Motions Hearing 6/25/18 pp. 19 20).

Defense counsel argued that this issue is separate from the third
party sexual assault issue because the OCY matter isn’t addressing whether or
not the victims in this case were the victims of sexual assault otherwise. It s
looking at whether or not there is a party that, wasn’t the victim of the sexual
assault whatsoever, but was reported as being sexually assaulted by Brenda
Rivera, fleana Rivera and Carmen Vega, that want’s actually assaulted in any
way. Id. at 26.
Generally, the Rape Shield Law predudes evidence of an alleged
victim's prior sexual conduct. See 18 Pa.C.S. § 3104(a). However, the Supreme
14

_

Court of Pennsylvania has clarified that the Rape Shield Law does not prohibit
evidence of previous sexual assaults upon a victim because “lt]o be a victim is
not' conduct’ of the person victimized.” Commonwealth v. Johnson, 638 A.2d
940, 942 (Pa.1994) Therefore, evidence of K.D. and C.L.’s other sexual
victimization is not subject to exclusion under the Rape Shield Law and must be
examined under traditional rules of evidence. Id.; see also Commonwealth v.
L.N u 787 A.2d 1064,1069 (PaSuper. 2001); Pa.R.E. 401. Therefore, the inquiry is
whether the testimony is relevant and material. Id. Evidence is relevant when
l^the^mference^sought-to-beraisedJby-the-evide-nce4Dears-upon-ajnatter„inlssue
in the case and, second, whether the evidence renders the desired inference
more probable than it would be without the evidence.’
Additionally, "a witness may not be contradicted on a collateral
matter rmrimmiwpalth v. Holder..815 A.2d1115,1119 (Pa.Super. 2003). A
collateral matter is “one which has no relationship to the case on
trial.” Commonwealth v. Fisher, 290 A.2d 262, 267 (Pa.1972)
(quoting Commonwealth v. Petrillo, 19 A .2d 288, 295 (Pa.1941)).
This Court rejected this argument and found the third party abuse
allegations not admissible because they were irrelevant and completely
collateral. Id, at 32. There was no nexus shown to any of the allegations of bias
against Appellant. There was a clear danger of confusion to the jury and
distraction to the jury if these allegations were introduced. Id, at 32 - 33.
However, this Court granted the Commonwealth’s motion in limine without
prejudice, depending on how the evidence at trial developed. Id. at 33.
15

On day two of the trial, defense counsel requested that this Court
review its prior determination in light of C.L’s testimony. He asserted that C.L.
made certain statements that could arguably go to coaching by the mother.
(Trial by Jury, V, 2, 7/10/18 p. 42). According to counsel, C.L called into
question whether or not the Commonwealth’s version of the events with
respect to the grandmother were factually accurate. Id. Defense requested that
he be able to direct examine or cross-examine other children in this case, that
made reports that were later determined to be unfounded to determine whether
or no rthere“is‘additronai-evidence-thatgoes-towards-GoaGhing,-and-alsoJ:o-----bring up the other allegations that were made against other individuals in this
case. Id. at 43.
Prior to the request was the cross-examination of C.L. in which
defense counsel asked her in relevant part about her conversations with her
mother about Appellant. Id at 20 -28.
This Court denied the request. Id. at 45. There was simply nothing
in C.L’s cross-examination testimony that required a reversal of the previous
ruling. Accordingly, this Court did not abuse its discretion in granting the
Commonwealth’s motion in limine.
V,

This Court properly sustained the Commonwealth objection during the
rrnss-pXamination of K.D.
Next, Appellant contends that this Court erred in sustaining the

Commonwealth’s objection to the question on cross-examination of K.D.

16

_!.

sr^g^ga

inquiring as to whether or not her mother would get physical with her during
fights.
K.D. was cross-examined by defense counsel and the
Commonwealth’s objection that was sustained arose in the following context.
Q.

... A few questions. Let me start with your family
members. Brenda is your mom; is that right?

A.
q.

: Yeah.
What kind of relationship do you have with
Brenda?

A----- NoCawery-goodjelutionship.--- _—_

!

a

What makes it not very good?

A.

We get into fights a lot.

Q.

Did you say you get into fights a lot?

A.

Why do you get into fights?
•r

[THE COMMONWEALTH]: I’m going to
object to the relevance, Your Honor.
THE COURT: Overruled.
BY [DEFENSE COUNSEL]
Q.

Why do you get into fights?

A.

Because I don’t like what mom tells me to do. I
don’t like doing my chores, either.

Q,

That’s pretty normal.
When you guys get into fights, does she
ever get physical with you?
[THE COMMONWEALTH]: Objection, Your
Honor.
17

THE COURT: Sustained.
(Trial by Jury, V. 1, 7/9/18 pp. 109 - 110).
This line of questioning was irrelevant to the issues presented at
trial of whether Appellant sexually abused his daughter and niece. Introducing
■

evidence of third party sexual assaults does nothing to further this inquiry.
VI.

This Court properly sustained the Commonwealth’s obiection during the
rrnss-p-xamination of A.L.

Sixth, Appellant contends that this Court erred in sustaining the
Cominonwealth’s-objection-to-thequestion-to-A.L^inqumng-db------ —
mother said to indicate why she was angry at him.
The context of the Commonwealth’s objection during the crossexamination of A.L. is as follows:
Q.

Did your mom tell you what your daddy did?

A.

Yes. He didn’t do nothing.

Q.
Is that because you know he didn’t do anything
or is that because she said so?
A.

She said so.

Q.

When did she say that, a few days ago?

A.

Uh-huh.

Q.

What did she tell you back in December?

A.

(No response.)

Q.

You don’t want to say?

A.

No.
18

Q.
I know it’s hard for you but it’s really important
that we hear it. What did she tell you back in
December?
A.

Nothing.

we know it was nothing. You told us it was
anothing.[AX.],
Can you tell us.
A.

I’m scared.

q.

You’re scared?

A.

(Indicating.)
You-renot-in-trouble.Jfou’re-safehere.-----------

A.

(No response.)
*'

‘

•

Q.

Did she say that your daddy did something bad?

A.

NO.

asisters?Did she say that your dad did something to your
A.

No.

acousin?Did she say that your dad did something to your
A.

No.

Did she say that you saw your daddy doing
asomething?
A.

No.

Q.

What did she say?

A.

(No response.)

Q.

Did she say something bad?
19

•*vh>rf- vTr

rtr
r-—

A.

Yes.

Q.

What did she say that was bad?

A.

(No response.)

Q.

Was she angry at your dad?

A.

Yes.

Q.

Why was she angry at him?

[THE COMMONWEALTH]: Objections, call
for speculation.
[THE COURT]: Sustained.
[DEFENSE COUNSEL]:
Q.

Did she say why she was angry at him?
[THE COMMONWEALTH]: Objection.

i

[THE COURT]: Sustained.
(Trial by Jury 7/10/18 pp. 65 - 67).
In this case, defense counsel was attempting to elicit testimony
that would suggest that A.L first made her allegations that she witnessed
Appellant with C.L. during the Mission Kids interview because her mother was
mad at Appellant in December of 2017. The objection was sustained because
counsel was trying to advance the defense theory that Ileana was mad at
Appellant due to problems in their relationship, and Ileana influenced her
daughter to make up the allegations against Appellant in her Mission Kids
interview . As the cross-examination of A.L. reveals, trial counsel attempted to
elicit testimony from A.L. but that A.L was unable to answer. This is evidenced

20

T-£**"T

by his repeated questioning of this witness in the same manner and the
repeated responses from this witnesses that showed she was not able to answer
for whatever reason. The objection was properly sustained.
Even if this objection was improperly sustained, it is harmless
error. “Harmless error exists if... the properly admitted and uncontradicted
evidence of guilt was so overwhelming and the prejudicial effect of the error so
insignificant by comparison that the error could not have contributed to the
verdict. - rmnmnnwpalth v. Mitchell. 135 A.3d 1097,1106 (Pa.Super. 2016). In
this case, thprp was overwhelming evidence of Appellant’s guilt, including but
not limited to the testimony Ms. Vega and from both victims, Mission Kids
interviews from these victims and testimony of Mission Kids Statement from
A.L who witnessed an instance of abuse against C.L.
VII.

Thw ronrfnrcmerlv ml pH inadmissible, during the cross-examination of
Brpnda Rivera: evidence that she was physically abusive to her children.
Seventh, Appellant claims that this Court erred in ruling not

relevant and inadmissible the testimony that Brenda Rivera was physically
abusive to her children as supported by the foundation stated in his offer of
proof.
Prior to the testimony of Brenda, defense counsel made an offer of
proof in regard to alleged physical abuse of one of her other children, KD.’s
brother, final by Jury, V. 3, 7/11/18 p. 51). Defense counsel’s offer of proof
was as follow.
I have been - - I’m in receipt of a video from Ileana
Rivera, upon which [K.D.], one of the victims in this
21

cr­

-.'rr ••■

•r

—r—

ease, recounts an instance where her mother, Brenda
Rivera, did take their son [B.R.] by his hair, pulling him
to the floor, scratching his face and hitting him. This • ,
was in response to what she said was him asking too
many questions!
i ‘

!

f

•

Tbe reason why I Would attempt to elicit this testimony •
in this trial is for the purpose of establishing a
potential motive on part of the children to come up
.with an excuse. As Your Honor heard earlier in this
trial, the testimony is that the initial disclosure of
sexual abuse came from [C.L] after one of her little
brother’s was confrohted by Carmen Vega for hitting
another one in the behind. It’s our position that they
could have been — and this evidence, would tend to
. show that they would have been in fear of physical
•
; abuse in rpgpnngp tr> this, giving thp children reason to .
make up a story in their own defense. In fact, [C.L.] is
recorded and testimony was heard by the jury, that
>
.. [C,L] says, He didn’t anything wrong. My daddy does
...... . this to me all of the time.Tt was from there that ,
:
Carmen Vega began interviewing that the initial sexual
allegation disclosure'came to hght/> //r/; • h/- /
'

'

TWsis,! think,particularly substantive, particularly probative, because there .are no p.ther witnesses, and
the children have said multiple times in response to
' niy cross-examination that they had received or been
told to say or do certain things by various interested
parents in this case. For that reason I think that this
evidence is admissible.

Id. at 51 - 53.
This Court found this tine of questioning attempting to elicit
testimony of alleged physical abuse to be inadmissible and irrelevant to the
issues at trial. Defense counsel’s argument, arguing that C.L, who made the

first spontaneous disclosure to Ms. Vega, and K.L, who also made a
contemporaneous spontaneous disclosure, were in physical fear of Brenda, so
i

they fabricated these sexual abuse allegations is not supported by any
22

i

competent evidence whatsoever. Id, at 55. There was no suggestion of abuse by
Ms. Vega, to whom the initial reports of abuse were made. There was nothing in
the direct-examination or cross-examination of the children that suggests
fabrication. The Mission Kids statements do not suggest fabrication. They were
done with open-ended questions. It was not the product of extensive leading
questioning by law enforcement personnel. It was one forensic interviewer. Id.
Additionally, there are hearsay and wiretap issues involved. For all of these
reasons defense counsel’s video evidence of alleged physical abuse was
properly-found to be inadmissible...-------- ------ l------- ----- —---- ---------------Vin. This Court properly prohibited the cross-examination of Brenda Rivera
ahmit third-partv abuse allegations after her testimony on direct
pyamination.

Lastly, Appellant claims that this Court erred in refusing to allow
the cross-examination of the third-party sexual abuse.allegations following
Brenda Rivera’s testimony at trial.
At trial, during the cross-examination of Brenda, defense counsel
renewed bis request that this Court reverse its previous ruling precluding
defense counsel from asking questions about third-party sexual abuse
allegation based upon the contents of the cross-examination that just occurred.
(Trial by Jury, V. 3, 7/11/18 p. 76). Counsel The request was denied.
The questioning immediately prior to this request by defense
counsel was as follows:
Q.
Did you ever speak to [K.D.] again, sit her down
again to try and get that information yourself?
.

23

-adPI. n'«!

A.
Yes, I tried several times to talk to her, but lately
she doesn’t really want to talk.
Q.
Between November 20th and December 30th, I’m
asking.
A.

Yes, I spoke with her.

a

How many times?

A.

Three, four times.

And you asked her again about the sexual
assault?

Q.

A,

Yes, We asked her every time we talked to her?

Q.

What did you ask her?

A.
I asked her how did it all happen, and lately she
doesn’t want to give much information, but she said
they did occur.
q.

What did you ask her between November 20th
and December 30th when you met her those three or
four times?
;
A.
I asked her how did she feel at that time, how
did it happen? But at the moment she really doesn’t
want to tell.
Q.

She doesn’t want to say now?

A.
No, right now she really doesn’t want to talk
much about that.
Q. Did she tell you back between November 20tb and
December 30th when you sat down these three or four
additional times?
A.
She did tell me that she had felt bad, that it had
hurt her, that she felt really bad that it had happened.
,
V.

Q.

•.

'

Did she say what happened to her?
24

.

[THE COMMONWEALTH]: Objection.
Can I see you at sidebar for a moment?
,

(A discussion is held off the record.)

THE COURT: Members of the jury
would you step out a moment for us?
(The jury leaves the courtroom.)
THE COURT: Out of the hearing of
the jury, the attorneys have agreed that there are only
certain things that you shouldn’t talk about, all right?
The D.A. will review that right now with you and tell
you what to stay away from.
[THE COMMONWEALTH]: That you,
Your Honor.
Brenda, you recall that we are here
today to only talk about what Carlos did to [K.D.],
okay? So when [defense counsel] is asking you
questions, make sure you only tell him information
related to Carlos. So if he asks you what [K.D.] said,
only say what [K.D] about Carlos.
(Trial by Jury, V. 3, 7/11/18 pp. 73 - 76). Immediately after, defense counsel
renewed his request for this Court to overturn its prior ruling.
This Court found nothing in this cross-examination testimony that
required a reversal of the previous ruling. Therefore, this request was properly
denied.
CONCLUSION
Based on the forgoing analysis, the judgment of sentence entered
on September 28, 2019, should be affirmed.

25

BY THE COURT:

Uj
WILLIAM R. CARPENTERS
COURT OF COMMON PLEAS
MONTGOMERY COUNTY
PENNSYLVANIA
38™ JUDICIAL DISTRICT

Copies sent on February 1, 2019
By Interoffice Mail to:
-Court Admimstratio n__________
By First Class Mail to:
Christopher W. Koschier, Esquire
266 E. Main Street
Suite 3
Norristown, PA 19401

26

J

T***

3-S71029-19
NON-PRECEDENTIAL DECISION - SEE SUPERIOR COURT I.O.P. 65.37
IN THE SUPERIOR COURT OF
PENNSYLVANIA

COMMONWEALTH OF PENNSYLVANIA

v.

CARLOS LOPEZ-VANEGAS
Appellant

:

Nq. 3256 EDA 2018

Appeal from the Judgment of Sentence Entered September 28, 2018
In the Court of Common Pleas of Montgomery County Criminal Division
atNo(s): CP-46-CR-0000735-2018
BEFORE: BOWES, J., MURRAY, J., and McLAUGHIjN, J.
MEMORANDUM BY MURRAY, J.:

FILED FEBRUARY 13, 2020

Carlos Lopez-Vanegas (Appellant) appeals from the judgment of
sentence imposed after a jury convicted him of three counts of rape of a child,
three counts of involuntary deviate sexual intercourse with a child, one count
of aggravated indecent assault of a child, two counts of indecent assault complainant less than 13 years of age, one count of corruption of minors, and
one count of endangering the welfare of children,1 We affirm.
Appellant's convictions arise from the sexual assault of K.D., age 11,
and C.L., age 5. The trial court detailed the facts and procedural history of
this case as follows:
The trial established the following facts. On November 20,
2017, K.D. and C.L. disclosed the sexual abuse to their mutual
grandmother [(Grandmother)].
[N.T., 7/10/18, at 79-80].

1 18 Pa.C.S.A. §§ 3121(c), 3123(b), 3125(b), 3126(a)(7), 6301(a)(l)(ii),
4304(a)(1).

•“J-S71029-19
^Sg^^^g3g^!^^B5gwa^aSS3Bgg£gg-B'i

[G ra ndrrroth e r]~ testifi ed~th at~s h e~ha s~two ~c hildre n;—[ B: R--]-~a n d
[I.R.]. Id. at 75-76. [B.R.] is the mother to three children; in
' particular she is K.D.'s mother. Id. at 76. [I.R.] also has three
children, including C.L. Id. at 78. Appellant is the father to
[I.R.j's children and was living with her and their children at the
time of the abuse.
On November 20, 2017, [Grandmother] was babysitting her
grandchildren and her grandson touched one of her
granddaughters "in the private parts." Id. at 80. [Grandmother]
reprimanded her grandson. Spontaneously C.L. said, "[w]ell, my
dad touch me in my private parts all the time." Id. C.L. indicated
to her grandmother that her private parts include her genital area
and her buttocks. Id. at 80-81.

.:
I

K.D. also came forward to tell her grandmother that Appellant
touched her "in her private parts too, a couple of times." Id. at
81. K.D. aiso disclosecTthat it would happen during sleepovers
when [I.R.] would go to work. Appellant would take her into the
bedroom, where he and [I.R.] would sleep. He touched her and
made her take her clothes off. Id. at 82. K.D. was nervous and
: was willing to talk more, but didn't.since the other kids were
around. Id. at 84. [Grandmother] relayed to [B.R.] what K.D.
had told her. Id. at 85.
On December 29, 2017, [Grandmother] spoke to K.D. again
about her previous disclosure of sexual abuse.’ Id. at 85.
[Grandmother] and K.D. were alone . and she asked her
granddaughter some questions about their previous conversation.
Id. at 85-86. [Grandmother] told the jury that K.D. became
nervous but told her that, "[actually, it did happen other things."
[sic] Id. at 86. [Grandmother] asked her for more details and
testified as to K.D.'s response as follows:
he took her to the bedroom and put them in bed; that he
took his clothes off and starting touching her. That he did
put his. [sic] Like she said, his private part in her. And I
ask her if it was just touching her or if he put his penis
inside, and she said yes, he did. . Because she said,
"Actually, it did hurt and I tried to, scream and he covered
my mouth and he didn't allow me to scream, so I started
crying." And he said it was fine, it's okay, nothing is going
to happen.
*

i

- 2 -

1

-

—-J-S71029-19 - - >
•~-~*r-.-

~

.i.

**

r"T~i

Idr K;Dralso”told'her_grandmother-that it-happened-more-than
once at [I.R.]'s house. ■ Id. at 88/
[Grandmother] relayed this information to [B.R.]. Id.-at 89.
[Grandmother] and [B.R.] took K.D. to the hospital so she could
be evaluated. Id. On December 30, 2017, the Lansdale Borough
Police Department was notified of these allegations, and Detective
Oropeza responded to the hospital. [N.T., 7/11/18 at 131-32].
The following day, on December 31,.2017, [I.R»] wa$ notified of
the allegations involving C.L. Id. at 132-133. A short time after,
[LR.J and’her family moved into the home [Grandmother] shared
with [B.R.] and her children.. [N.T., 7/10/18, at 92].
••. ;
K.D. testified at trial. She was eleven at the time of trial. [N.T.,
7/9/18, at 68.] . . , K.D. told the jury that when she would .sleep
over [at] [I.R.]'s house with her cousins, Appellant would wake
her, -while [I.R.] was at . work and he would take her to the
bedroom1 where he and [I.R.] slept! Id. at 81-827“ There,
Appellant made K.D.[] take her clothes off. Id. at 83. He touched
her vaginal area, and she testified'that he would put his fingers,
tongue and penis inside:and move them around. Id. at 87-88,
91-93. Appellant also touched her buttocks area and his fingers
arid perils would'go- inside^ and outside .that area moving-around.
Id. at 88-89. Appellant used something "squishy" on his penis to
make it hurt less. Id. at 96, 97. To keep K.D. from screaming,
Appellant would put a blanket or a pillow in her mouth. Id. at 95.
Appellant also forced K.D. to put his penis:in.her mouth and t[old]
her to "suck it." Id. at 98-99. Appellant did.all these things more
than five times. Id. at 102-03. K.D. -told the jury how she went
to the hospital after disclosing this sexual abuse. Id. at 106.
On December 30, 2017, K.D. was examined by Amanda
Schwenk, R.N., who is a registered nurse at Grandview-Hospital.
[N.T., 7/10/18, at 98-99]. At trial, Ms. Schwenk read from the
triage notes which documented that K.D. requested for both her
mother and grandmother not to be in the room to,discuss the
assault. Id. at 101. The only people present during the interview
were Nurse Schwenk and Dr. Patro. Id. at 1Q2.
C.L., who was five at the time of the trial told the jury that
Appellant did a bad thing to her body. [Id. at 12-13]. C.L., using
a cartoon picture of the front and ;back of a girl, testified that
Appellant did something bad to her vaginal and buttocks area. Id.
at 13-14. It happened more than once. Id. at 14. C.L. was

v.

- 3 -

t—

h&ssatsmm

-3-S7-1029-19 -

r*

asa!i£aa?sg;
hesitant*tO"provide details at trial “saying-that-she-doesn't-want~to—
say. Id. at 17. C.L. acknowledged that she spoke to Miss Maggie
at Mission Kids about what happened and said that everything she
told her was the truth. Id. at 17-18.
Next, A.L.,- C.L.'s seven-year-old sister, testified. . . . [A.L.]
admitted that she told Miss Maggie from Mission Kids that she had
seen her father with C.L in her mom's room in the same bed. Id.
at 55. At trial[,] she told the jury [that Appellant] had his clothes
on; but reported to Mission Kids that Appellant did not have his
clothes on when she saw him with her sister. Id. at 56. [A.L.]
testified that Appellant told her it was a secret when she saw them
in the bed together and then took her to a playground. Id.
: Maggie Sweeney> :the Program Manager and forensic
interviewer at’Mission Kids Advocacy Center, also testified at trial
on behalf of the Commonwealth. Id. at 109. She was recognized
at trial as-an expert in forensic interviewing. id~amor-sheexplained ’!to the jury that as a forensic interviewer she utilizes
open-ende”d; non-leadihg developfnentally appropriate questions
of the children because they elicit the most.accurate information
from children.-Id. at 111-12. On January 9, 2018, she conducted
a forenslcHoterview of K.D., G.L.:and AiLL;Id.:.al 113, 115, 117.
A second interview of A.L. was conducted on-June 27., 2018, based
on new information. Id. at 117.

i

[I.R.] was told on December 31, 2017 about the-allegations
made against Appellant [] by G.L. [N.T., 7/11/18, at 93]. [I.R.]
asked C.L. directly about it in front of Appellant, who interjected
and said he did nothing. Id.[] [I.R.] and her three children
moved in with [Grandmother], [B.R.] and [B.R.]'s three children.
Id. at 95. C.L. revealed to her mother about the sexual abuse.
Id. at 95-96. A.L. also told her mother that she had a secret with
Appellant, involving touching C.L. Id. at 96-97. After [I.R.] found
all of this out she and her three children moved in with [B.R.]. Id.
at 97. Additionally, the Commonwealth questioned this witness
as to whether she coached or influenced A.L. to change her
statement in the second Mission-Kids interview. Id. at 102-03.
•*

.

At the conclusion of the four-day trial, Appellant was found
guilty of the aforementioned Crimes. On September 28, -2018, a
sentencing hearing was conducted at which both Appellant's
i

v_.

- 4 -

J-S71029-19
father, brother, [and] sister-in-law testified on his behalf. Two
letters of support for Appellant were submitted and read to [the
trial court]. [The trial court] sentenced Appellant to an aggregate
sentence of 48 to 69 years [of] imprisonment.
A timely notice of appeal was filed. Appellant was directed to
file a concise statement of errors complained of on appeal
pursuant to Pa.R.A.P. 1925(b), which he did.
Trial Court Opinion, 2/4/19, at 1-6 (some citations modified).
On appeal, Appellant presents the following issues for review:
Whether the trial court abused its discretion in denying
Appellant's request for a pre-trial evidentiary hearing to explore
allegations of taint regarding the complaints of sexual abuse made
by the witnesses of tender years?

I.

Whether the trial court abused its discretion in precluding
the admission of evidence of contemporaneous allegations of
sexual abuse made by the minor victim K.D. against Appellant's
two brothers, and evidence of contemporaneous reports to OCY
that L.R., who was a relative and companion of both minor victims,
was also sexually abused by Appellant and Appellant's two
brothers?

II.

Appellant's Brief at 4.2
In his first issue, Appellant argues that the trial court abused its
discretion in denying his request for a taint hearing for the child witnesses in
this case. Appellant asserts that he provided the trial court with evidence of

2 We note that Appellant raised eight issues in his Pa.R.A.P. 1925(b)
statement. We address only those issues that Appellant argues in his
appellate brief, because the issues Appellant has not argued on appeal are
waived. See Pa.R.A.P. 2119(a); see also Commonwealth v. Johnson, 985
A.2d 915, 924 (Pa. 2009) ("where an appellate brief fails to provide any
discussion of a claim with citation to relevant authority or fails to develop the
issue in any other meaningful fashion capable of review, that claim is
waived").
- 5 -

J-S71029-19
“ffg5l5a5iS?5”*5*5g5

taint relating to tHe'cliiici witnesses' testimony and consequently, a hearing
was necessary to determine whether they were competent to testify at trial.
"The determination of a witness's competency rests within the sound
discretion of the trial court." Commonwealth v. Davis, 939 A.2d 905, 90607 (Pa. Super. 2007). As this Court has recently reiterated, "[t]he general
rule in Pennsylvania is that every person is presumed competent to be a
witness."

Commonwealth v. Adams-Smith, 209 A.3d 1011, 1021 (Pa.

Super. 2019) (quoting Common wealth v. Delbridge, 855 A.2d 27, 39 (Pa.
2003)). In Delbridge, our Supreme Court explained the following regarding
competency hearings:
A competency hearing concerns itself with the minimal capacity of
the witness to communicate, to observe an event and accurately
recall that observation, and to understand;the necessity to speak
the truth. A competency hearing is notconcerned with credibility.
Credibility involves an assessment of whether . . . what the
witness says is true; this is a question for the fact finder. An
allegation that the [child witness'] memory of the event has been
tainted raises a red flag regarding competency, not credibility.
Where it can be demonstrated that a [witness ] memory has been
affected so that their recall of events may not be dependable,
Pennsylvania law charges the trial court with the responsibility to
investigate the legitimacy of such an allegation.
Delbridge, 855 A.2d at 40.
In child sexual assault cases, taint is an issue that can necessitate a
competency hearing,

Id. at 39 C'[T|aint js a legitimate question for

examination in cases involving complaints of sexual abuse made by young
children.").

In Delbridge, our Supreme Court defined taint as "the

implantation of false memories or the distortion of real memories caused by
- 6 -

J-S71029-19
interview techniques of law enforcement, social service personnel, and other
interested adults, that are so unduly suggestive and coercive as to infect the
memory of the child, rendering that child incompetent to testify." Id. at 35.
Allegations of taint necessitate a competency hearing in the following
circumstances:
In order to trigger an investigation of competency on the issue of
taint, the moving party must show some evidence of taint. Once
some evidence of taint is presented, the competency hearing must
be expanded to explore this specific question. During the hearing
the party alleging taint bears the burden of production of evidence
of taint and the burden of persuasion to show taint by clear and
convincing evidence. Pennsylvania has always maintained that
since competency is~the presumption, the moving partynmrst
carry the burden of overcoming that presumption.
Adams-Smith, 209 A.3d at 1021 (quoting Delbridge, 855 A.2d at 40).
Additionally,
In analyzing whether a party has met the "some evidence of
taint" standard, the trial court considers the totality of the
circumstances around the child's allegations. [Delbridge, 855
A.2d] at 41. This Court has identified some of the common
considerations relevant to this analysis as follows:
(1) the age of the child; (2) the existence of a motive hostile
to the defendant on the part of the child's primary
custodian; (3) the possibility that the child's primary
custodian is unusually likely to read abuse into normal
interaction; (4) whether the child was subjected to repeated
interviews by various adults in positions of authority; (5)
whether an interested adult was present during the course
of any interviews; and (6) the existence of independent
evidence regarding the interview techniques employed.
Commonwealth v. Judd, 897 A.2d 1224, 1229 (Pa. Super.
2006) (citation omitted).
Commonwealth v. Smith, 167 A.3d 782, 790 (Pa. Super. 2017).
- 7 -

- ■ -J-S71029-19
H e re ~ the “tria hcourtr ex plained its decis ion-to deny-Appellant's-request
for a taint hearing as follows:

-

In this case, applying the Delbridge factors, this [c]ourt
denied the defense request for a taint hearing because the
defense offer of proof was insufficient and did not. meet the
threshold that would entitle him to a taint hearing.
[N.T.,
6/25/18, at 17]. There was no evidence of hostile intent or any
reason to plant these suggestions or to distort the memory of the
children, 11 and five years old. Id.
This Court determined that there was not any .questioning that
was suggestive. Id: The Mission Kids interviewer used openended, rioh-suggestive questions. The purpose of the Mission Kids
interview is to see that the child is only interviewed once by law
enforcement people. Id. The techniques that were used during
the Mission Kids interview were open-endedT-!*/. at 18“
Importantly, the initial disclosures of sexual abuse by the
children were spontaneous. The statements made were largely
consistent. There is no evidence of implanting or distorting
memories. Id.
Nothing'presented" indicated that the primary custodian would
have been likely to read abuse in the normal,situations.. Id. In
fact, the initial statements were not made to - the-, victims'
respective mothers.
There were not repeated interviews by various adults in
positions of authority. The nurse, to the extent that was an
interview, was minimal. It was also [the interaction] where K.D.
asked to be alone with the nurse. So there, was no interested
adult in the room at the time, or in the Mission Kids interviews.
It is important to note that in defense counsel's taint argument
he skipped over the spontaneous initial disclosures made on
November 20, 2017.
Rather, his argument focused on the
December 29th follow-up conversation in which [Grandmother]
Both the fact that
asked K.D. for additional details.
[Grandmother] did not go to police after this initial disclosure goes
to her lack of hostile intent, and the fact that even after the
December 29th conversation [Grandmother] and [B.R.] took K.D.
to the hospital and not the police also go to lack of hostile intent.
- 8 -

J-S71029-19
• ~~• _.
■srcjs—•-■s-v.

-

Finally, it is important that [I.R.] was not told about any of the
abuse allegations until December 31, 2017, which was after the
police were involved and the abuse reports by the children were
made to OCY. Clearly she could not have tainted the sexual abuse
allegations and statements made prior to her knowledge.
Trial Court Opinion, 2/4/19, at 10-11.
Based upon our review of the record, including the transcripts of
Appellant's pre-trial motions hearing and trial, and the parties' appellate
briefs, we agree with the trial court's assessment that a taint hearing was not
warranted.

The record reveals no evidence indicating the presence of the

factors set forth in Smith and Judd, other than the young age of the children.
As the trial court recognized, the actions of Grandmother, in reporting the
allegations of sexual abuse, and the Mission Kids interviewer, reflect the
absence of those factors, and thus a lack of taint in the child witnesses'
testimony. See id.) see also N.T., 6/25/18, at 17-18.
Furthermore, in his appellate brief, Appellant provides a list of several
facts that he contends demonstrates that he provided the trial court with
"some evidence of taint."

See Appellant's Brief at 22-27.

Specifically,

Appellant points to evidence indicating that: K.D., A.L., and C.L. were young
(ages 11, 7, and 5, respectively) when they testified at trial; [I.R.] and
Appellant had relationship issues (which included accusations of infidelity by
[I.R.] against Appellant); L.R., one of K.D.'s younger siblings, raised
allegations of abuse against Appellant and his brothers that the Office of
Children and Youth determined were unfounded, and C.L. did not mention that

-9-

J-S71029-19
~~~

•j-rTT:"

rrr-~" r

Appellant's brothers sexually assaulted her in herMission Kids interview. See
id. These facts do not provide "some evidence of taint." See Adams-Smith,
209 A.3d at 1021. As mentioned above, taint is "the implantation of false
memories or the distortion of real memories Caused by interview techniques
of law enforcement, social service personnel, and other interested adults, that
are so unduly suggestive and coercive as to infect the memory of the child,
rendering that child incompetent to testify." Delbridge, 855 A.2d at 35
(emphasis added).
In sum, Appellant cites as evidence of taint certain facts that, at best,
could undermine the child witnesses' credibility. He does not, however, point
to any evidence that shows any person involved in the case attempted to
implant false memories or distort the real memories of the child witnesses.
Although the facts may ultimately impact witness credibility, they do not bear
upon the objective of a taint hearing - to investigate facts that may show a
witness' lack of competency to testify. See Delbridge, 855 A.2d at 40.
Therefore, as there is no record evidence of taint, the trial court did not abuse
its discretion in denying Appellant's request for a taint hearing.
In his second issue, Appellant argues that the trial court abused its
discretion in precluding him from introducing evidence that K.D. raised
allegations of sexual assault against Appellant's two brothers, and that L.R.
also raised allegations of sexual assault against Appellant and his brothers.

- 10 -

J-S71029-19
.-=*•:—-.rs.-rr
ssr*^; -J

The trial court dented admission of this evidence on the basis that it was
irrelevant. N.T., 6/25/18, at 32-33.
"Questions concerning the admissibility of evidence are within the sound
discretion of the trial court and its discretion will not be reversed absent a
clear abuse of discretion." Commonwealth v. Leaner, 202 A.3d 749, 773
(Pa. Super. 2019) (quotation and citation omitted). Generally, "all relevant
evidence, i.e,, evidence which tends to make the existence or non-existence
of a material fact more or less probable, is admissible, subject to the
prejudice/probative

value

weighing

which

attends

all

decisions

upon

admissibility." Commonwealth v. Dillon, 925 A.2d 131, 136 (Pa. 2007);
see also Pa.R.E. 401.

"The court may exclude relevant evidence if its
.....

probative value is outweighed by a danger of one or more of the following:
unfair prejudice, confusing the issues, misleading the jury, undue delay,
wasting time, or needlessly presenting cumulative evidence." Pa.R.E. 403.
"Unfair prejudice means a tendency to suggest decision on an improper basis
or to divert the jury's attention away from its duty of weighing the evidence
impartially." Pa.R.E. 403 (comment).
In denying Appellant's evidentiary request, the trial court explained that
it "found the third party abuse allegations not admissible because they were
irrelevant and completely collateral. ... There was a clear danger of confusion
to the jury and distraction to the jury if these allegations were introduced."
Trial Court Opinion, 2/4/19, at 15. We agree.

- 11 -

J-S71029-19
This Court has explained in sexual assault cases, the Rape Shield Law,
18 Pa.C.S.A. § 3104, 3 " does not always preclude evidence the complainant
was a victim of a prior sexual assault, see Commonwealth v. Johnson, []
638 A.2d 940, 942 ([Pa.] 1994), but the proffered evidence must still be
relevant and material under the rules of evidence." Commonwealth v.
L.N., 787 A.2d 1064, 1069 (Pa. Super. 2001) (emphasis added). As the trial
court recognized, the allegations of sexual assault against Appellant and his
brothers that were not at issue in this case, ''did not tend to prove or disprove"
whether Appellant abused K.D. and C.L. See L.N., 787 A.2d at 1069. Instead,
Appellant's desire to introduce this evidence would have served only to
impeach

the victims' credibility,

Witnesses,

however, "may not be

contradicted upon a collateral matter[,] i.e., "one which has no relationship to
the matter on trial." Johnson, 638 A.2d at 942-43

3 The statute reads, in pertinent part, as follows:
(a) General rule.--Evidence of specific instances of the alleged
victim's past sexual conduct, past sexual victimization, allegations
of past sexual victimization, opinion evidence of the alleged
victim's past sexual conduct, and reputation evidence of the
alleged victim's past sexual conduct shall not be admissible in
prosecutions of any offense listed in subsection (c) except
evidence of the alleged victim's past sexual conduct with the
defendant where consent of the alleged victim is at issue and such
evidence is otherwise admissible pursuant to the rules of
evidence.
18 Pa.C.S.A. § 3104(a)

12

J-S71029-19

*

Finally, given the collateral nature of the accusations, if the trial court
had admitted this testimony at trial, the danger of unfair prejudice would have
outweighed the testimony's probative value as impeachment evidence. See
Pa.R.E. 403. In sum, the trial court did not abuse its discretion in precluding
the admission of Appellant's proffered evidence. See Pa.R.E. 401, 403.
v

'''

.

* '

Judgment of sentence affirmed.
Judgment Entered.

L/P.
Joseph D. Seletyn, Esd^
Prothonotary

Date: 2/13/20
r
Li.

.‘Z.T-

J

i

i

IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT

COMMONWEALTH OF PENNSYLVANIA

No. 133 MAL 2020

Respondent
Petition for Allowance of Appeal
from the Order of the Superior Court
v.

CARLOS LOPEZ-VANEGAS,
Petitioner

•

ORDER

PER CURIAM

}

AND NOW, this 21st day of July, 2020, the Petition for Allowance of Appeal is
DENIED.

&a®)/2'S5{Drelbelbis'Esq uire
Attest*
Deputy Hrotnonotary
Supreme Court of Pennsylvania

r
]
m**mmjs*

ihijh

■m

